NO. 20-1668

In the
Supreme Court of the United States
CITY OF TAHLEQUAH, OKLAHOMA;
BRANDON VICK; JOSH GIRDNER,

Petitioners,
v.
AUSTIN P. BOND, AS SPECIAL ADMINISTRATOR OF
OF DOMINIC F. ROLLICE, DECEASED,

THE ESTATE

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
MOTION FOR LEAVE TO FILE AND
BRIEF OF AMICUS CURIAE THE NATIONAL SHERIFFS’
ASSOCIATION IN SUPPORT OF PETITIONERS

GREGORY C. CHAMPAGNE

COUNSEL OF RECORD

MAURICE E. BOSTICK
ST. CHARLES PARISH SHERIFF’S OFFICE
260 JUDGE EDWARD DUFRESNE PARKWAY
LULING, LA 70070
(985) 783-2883
SHERIFFGC@STCHARLESSHERIFF.ORG

COUNSEL FOR AMICUS CURIAE

JUNE 17, 2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

Motion–1
MOTION FOR LEAVE TO FILE BRIEF
Pursuant to Supreme Court Rule 37.2(b), the
National Sheriffs’ Association (“NSA”) respectfully
moves the Court for leave to file the accompanying
brief as amicus curiae. The consent of counsel of
petitioners, City of Tahlequah, Oklahoma, et al., has
been obtained, but the consent of counsel for respondent
Austin Bond was withheld by letter dated June 7,
2021, without stating a reason. Supreme Court Rule
37.2(a) requires that the consent of counsel be obtained
at least 10 days prior to submission of an amicus
curiae brief. In respect for this rule, NSA requested
consent of respondent, Austin Bond, on June 3, 2021,
by certified letter, well before the deadline to file
amicus curiae briefs of June 30, 2021, as to provide
notice of this organization’s interest in this case
prior to drafting any brief.
The NSA is a non-profit association formed
under 26 U.S.C. 501(c)(4). Formed in 1940 the NSA
seeks to promote the fair and efficient administration
of criminal justice throughout the United States and
in particular to advance and protect the Office of
Sheriff throughout the United States. The NSA has
over 13,000 members and is the advocate for 3,080
sheriffs throughout the United States.
The NSA also works to promote the public interest
goals and policies of law enforcement throughout the
nation. It participates in the judicial process where
the vital interests of law enforcement and its members
are affected. NSA has filed numerous amicus curiae
briefs with this Court in the interest of public safety
and law enforcement.

Motion–2
As more fully set forth in the amicus brief filed
concurrently herewith, the decision below not only
challenges binding Supreme Court precedent, but also
endangers public safety and officer safety by prohibiting law enforcement officers from taking necessary
actions to safeguard the public and themselves in life
or death situations. Such public policy concerns,
included in the accompanying amicus curiae brief,
provide an important perspective as to why the Court
should grant this motion.
Respectfully submitted,
GREGORY C. CHAMPAGNE

COUNSEL OF RECORD

ST. CHARLES PARISH SHERIFF’S OFFICE

260 JUDGE EDWARD DUFRESNE PARKWAY
LULING, LA 70070
(985) 783-2883
SHERIFFGC@STCHARLESSHERIFF.ORG
MAURICE E. BOSTICK

ST. CHARLES PARISH SHERIFF’S OFFICE

260 JUDGE EDWARD DUFRESNE PARKWAY
LULING, LA 70070
(985) 783-0213
MBOSTICK@STCHARLESSHERIFF.ORG

COUNSEL FOR AMICUS CURIAE
THE NATIONAL SHERIFFS’ ASSOCIATION

JUNE 17, 2021

